payments of approximately $1,6991 in FY 2012, for a grand total of $47,918. We
classified these amounts as funds put to better use for reporting purposes.

We performed our examination in accordance with the Government Auditing Standards
for attestation engagements. Our scope and methodology are discussed in Exhibit D.

In response to the draft report, the University did not agree that it claimed unallowable
NFFS totaling $751,572, but did agree that its NFFS income was overstated by
$236,792. The University’s complete response to our draft report is included on
Exhibit E.

This report presents the conclusions of the Office of Inspector General (OIG) and the
findings reported do not necessarily represent CPB’s final position on these issues.
Accordingly, the report contains recommendations the OIG believes would be
appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on the University’s response
to the draft report, we consider recommendations 1a through 1d as unresolved.


                                         BACKGROUND
WDUQ 90.5 FM was a public telecommunications entity previously operated by
Duquesne University until 2011 when the station was sold to another public radio
station. As a non-profit public radio station broadcasting from Duquesne University, the
majority of the station’s operations were funded by listener contributions. Additional
support was provided by program underwriters, Duquesne University, foundations, and
CPB.

Founded in 1949, WDUQ first went on the air as a laboratory for Duquesne University
students. It was the first public radio station in western Pennsylvania. When National
Public Radio (NPR) launched in 1970, WDUQ 90.5 FM was one of the charter stations
to carry NPR programming. The station’s news department, originally operated by
broadcasting and journalism students, evolved into a full-fledged professional local
news operation and a link in the NPR network. WDUQ was a 25,000-watt station
broadcasting jazz and local, national, and international news, including NPR, from a
tower in Mt. Washington. In 2006, and 2007, the station added four additional
translators, expanding its signal to Johnstown, Somerset, Ligonier, and New Baltimore,
Pennsylvania.



1
  Duquesne University sold WDUQ to another public radio station in May 2011. As a result, the
University’s 2010 AFR will be used to determine the amount of the new licensee’s 2012 CSG. The
receipt of $1,699 in excess payments will be the responsibility of the new licensee, unless the FY 2010
AFR is revised to eliminate the unallowable NFFS.

                                                    2
On May 2, 2011, Duquesne University signed an Asset Purchase Agreement with
Essential Public Media, LLC to sell substantially all of the tangible and intangible assets
used in the operations of the station, including FCC licenses. The Asset Purchase
Agreement closed on September 15, 2011.

CPB awards annual CSG grants to public radio stations based on the amount of NFFS
claimed by all radio stations on their AFRs. The radio CSG pool of appropriated funds
is adjusted by base grant awards and the Rural Listener Access Incentive Fund reserve.
The funds that remain are called the Incentive Grant Pool. The Incentive Rate of Return
(IRR) is calculated by dividing the Incentive Grant Pool by the total amount of NFFS
reported by all radio stations. The IRR is then multiplied by the station’s reported NFFS
to calculate the incentive award amount of the station’s total CSG. There is a two year
lag between the reported NFFS and CPB’s calculation of a fiscal year’s CSG amount.
Thus, CPB used the NFFS claimed by WDUQ on its FY 2008 AFR to determine the
amount of the CSG the station received in FY 2010. The FY 2010 AFR, and the
FY2011 AFR that WDUQ submitted after our fieldwork began, can be used to provide
2012 and 2013 CSG funds to the new licensee.

During our audit period CPB paid WDUQ $1,004,306 in grants as shown in Exhibit A.
WDUQ’s audited financial statements for the three fiscal years we reviewed reported
over $10 million in revenues. WDUQ’s fiscal year begins July 1 and ends on June 30.


                               RESULTS OF REVIEW
We examined management’s assertions of compliance with CPB’s CSG and other grant
agreement terms for fiscal years 2008-2011, as well as NFFS reporting Guidelines for
the periods ending June 30, 2008, 2009 and 2010. Management is responsible for
compliance with these requirements. Our responsibility is to express an opinion on
management’s assertions about its compliance based on our examination.

WDUQ’s claimed NFFS is included on Exhibit B. Our examination of this NFFS
disclosed that WDUQ was materially noncompliant with CPB Guidelines for reporting
NFFS on its AFRs for the periods ending June 30, 2008, 2009 and 2010, by improperly
claiming $751,572 for exchange transactions from ineligible sources, duplicate
revenues, refunds, and unsupported amounts. The over-reporting of NFFS in FY 2008
through FY 2010 resulted in CPB making excess CSG grant payments to WDUQ
totaling $20,793 during FY 2010, and $25,426 in FY 2011, and will result in
overpayments of approximately $1,699 to the new licensee during FY 2012.
In our opinion, because of the material noncompliance described above, WDUQ has not
complied with CPB Guidelines for reporting NFFS for the periods ending June 30, 2008,
2009 and 2010.




                                             3
                      FINDINGS AND RECOMMENDATIONS

Reporting Non-Federal Financial Support

WDUQ did not comply with CPB Guidelines for reporting NFFS by improperly claiming
$751,572 as direct revenues and NFFS on its AFRs, as presented in the table below.
Reporting unallowable NFFS resulted in CPB making $46,219 of excess CSG grant
payments to WDUQ during FYs 2008 and 2009. CPB will also make an additional CSG
overpayment of approximately $1,699 in FY 2012 to the new licensee, unless WDUQ’s
FY 2010 AFR is adjusted to eliminate the unallowable NFFS reported that year. We
classified this total of $47,918 as funds put to better use for reporting purposes because
the funds overpaid to WDUQ could have been distributed to other public broadcasting
entities.

         Unallowable Radio NFFS and Calculation of Overpaid CSG Funds

           NFFS Categories               FY 2008      FY 2009      FY 2010        Total

  Total NFFS Claimed                     $3,003,358   $3,307,051   $2,944,736    $9,255,145


  Unallowable NFFS
  Non-profit Payments                     $240,519     $215,219      $18,797      $474,535
  Duplicate & Unsupported Revenues          80,054       88,196          528       168,778
  NPR Music Review                          10,125          125            0        10,250
  Refunds, Fees & Premium Sales                  0          926        6,365         7,291
  Professional Fees Reimbursement            4,008       24,524            0        28,532
  Over Claimed Institutional Support             0       62,186            0        62,186


  Total Unallowable Revenue               $334,706     $391,176      $25,690      $751,572
  CPB’s Radio Incentive Rate of Return   6.21241%        6.50%     6.61190%
  CSG Overpayments                         $20,793      $25,426       $1,699       $47,918 

Details concerning the various types of unallowable NFFS reported by WDUQ are
discussed below.

      Non-profit Payments

For the three years reviewed, we determined that $474,535 or 63 percent of the
unallowable NFFS was for exchange transactions from an ineligible source and not for a
qualifying activity. CPB Guidelines Section 2.3.1 provides that an allowable NFFS
transaction can be either a contribution or a payment provided for qualifying activities
from an eligible source. CPB Guidelines also provide for allowable NFFS exchange
transactions. These are defined as payments received from educational institutions, or
state and local government agencies in exchange for producing, developing, or
delivering educational or instructional programming, but exclude exchange transactions

                                              4
from not-for-profits and foundations that are not educational institutions. This same
reference establishes that the universe of eligible sources for payments in exchange
transactions is relatively small (the only eligible sources are state and local
governments and educational institutions).

During our audit period WDUQ had an operating agreement with a non-profit
organization to broadcast the reading of printed material to people who were sight-
impaired or unable to read or hold printed materials. From the non-profit’s founding in
1976, its broadcasts originated from the campus of Duquesne University. When the
non-profit’s operations grew too large for the station, the studio moved to the Southside
neighborhood of Pittsburgh. Facing a lack of funding and a possible shutdown, on
November 1, 2005, the board of the non-profit entered into a Management Agreement
with Duquesne University. This agreement allowed it to remain a separate 501 (c)(3)
nonprofit organization with a governing board responsible for all fundraising and
community outreach and WDUQ was responsible for the day-to-day business
operations of the non-profit, including programming, services, personnel and volunteer
management.

The Management Agreement provided that in exchange for its services, Duquesne
University would receive payment from the non-profit for “relevant direct costs” and the
right to use its name, services, and mission statement. The Management Agreement
also provided that the non-profit would cease to have employees and current
employees would be strongly encouraged to apply for positions with the University to
continue the non-profit’s mission. The Agreement also specified that these positions
were dependent upon continual payments from the non-profit to reimburse the
University for its services. Finally, the agreement provided that the University would
allocate the funds budgeted for salaries and benefits to a full-time executive director, a
full-time administrative assistant/volunteer coordinator, a full-time engineer, and a part-
time engineer.

On its FY 2008, 2009 and 2010 AFRs WDUQ claimed NFFS of $474,535 for payments
it received to provide services to the non-profit’s clients. Details follow:

                                  Non-Profit Payments
                                  Fiscal Year   Amount

                                      2008        $240,519
                                      2009         215,219
                                      2010          18,797
                                     Total        $474,535

These payments reimbursed WDUQ for its expenses in broadcasting the non-profit’s
services to its clients, i.e., salaries, benefits, lease payments, and telephone, etc. While
the CPB Guidelines allowed payments for exchange transactions from not-for-profits in
FY 2008, the payments had to be for qualifying activities to further public broadcasting.
Since the services under this agreement were not qualifying activities, we determined
that the full amount of $474,535 was erroneously claimed as NFFS.


                                             5
      Duplicate and Unsupported Revenues

The NFFS amounts claimed for all three fiscal years included $168,778 that the
university did not provide adequate supporting documentation. The University’s
supporting schedules for the three AFRs contained the following items and amounts.

         Description From Schedules         FY 2008    FY 2009    FY 2010    Total

       Accrued Receivables per Summary       $75,031   $86,473              $161,504
       Grant Accounts Receivable               2,500                           2,500
       None Provided                             413                             413
       None Provided                           2,110      1,723      $528      4,361
               Total Unsupported             $80,054    $88,196      $528   $168,778

To substantiate $164,004 ($75,031 + $86,473 + $2,500) of the total unsupported NFFS
shown above, the University subsequently provided us the accounting entries for
accruing underwriting and grant receivables. However, our analysis disclosed that the
underwriting and grant receivables had already been claimed as NFFS. Moreover, the
University did not provide any underwriting contracts to evidence the additional
receivables, other than the contracts we previously had examined and accepted.

The university’s representative acknowledged that the remaining $413, and $4,361
amounts were either not NFFS or could not be substantiated as NFFS. As a result, we
disallowed the entire $168,778.

      NPR Payments

 For the three years reviewed, we determined that $10,250 of the NFFS claimed was for
payments WDUQ received from NPR. CPB Guidelines Section 2.3 defines the term
“non-Federal financial support” (NFFS) as the total value of cash and the fair market
value of property and services … received –

   (A) as gifts, grants, bequests, donations or other contributions for the
       construction or operation of noncommercial educational broadcast
       stations, or for the production, acquisition, distribution, or
       dissemination of educational television or radio programs, and
       related activities, from any source other than (i) the United States or
       any agency or instrumentality of the United States; or (ii) any public
       broadcasting entity; or

   (B) as gifts, grants, donations, contributions, or payments from any State,
       or any educational institution, for the construction or operation of
       noncommercial educational broadcast stations or for the production,
       acquisition, distribution, or dissemination of educational television or
       radio programs, or payments in exchange for services or materials
       with respect to the provision of educational or instructional television

                                             6
      or radio programs.

In simpler terms, public broadcasting entities such as NPR are ineligible sources of
contributions and payments. As a result, the $10,250 that WDUQ received from NPR
was determined to be unallowable as NFFS.

      Refunds Fees and Premium Sales

Our review identified the following amounts of ineligible refunds, fees, and premium
sales claimed as NFFS.

              Types of Ineligible Revenue     FY 2009    FY 2010    Total

              Refund & Miscellaneous Income       $110    $5,000   $5,110
              Premium Sales & Studio Fees          816     1,365    2,181
                          Totals                  $926    $6,365   $7,291

The $110 claimed in 2009 was a refund for unused tickets. The $5,000 payment
claimed in 2010 was received from a law firm as “final payment under settlement
agreement with FCC, to dismiss Cranberry Township application.” CPB Guidelines
Section 2.3.1 provides that refunds, rebates and reimbursements are ineligible as
NFFS. As a result, these amounts were determined to be ineligible NFFS. Additionally
this same reference establishes that for-profit entities are an ineligible source of
payments, again precluding the law firm’s payment from being included as NFFS.

The $816 claimed as NFFS in FY 2009 included; $125 claimed on line 8 of the AFR for
payments of studio fees from two foundations that were not educational institutions, and
$225 claimed for studio fees receivable. The $816 also included $466 claimed on line 9
of the AFR for payments for “old premiums” sold by WDUQ. We considered the entire
$816 as ineligible NFFS.

The $125 was considered ineligible because CPB Guidelines prohibit claiming
payments from “Foundations that are not Educational Institutions” as NFFS. Moreover,
WDUQ did not provide support to substantiate the $225 of receivable studio fees.
Additionally, the $466 claimed in FY 2009 on line 9 (Business and Industry) of the AFR
was also considered ineligible as NFFS because the CPB Guideline instructions for
completing line 9 states that, “All payments from business and industry sources are
ineligible as NFFS and must be excluded….” Similarly, the $1,365 claimed as NFFS
revenue on line 9 of the FY 2010 AFR was received as payments for studio fees and
“old premiums” sold by WDUQ. This amount was also considered ineligible as NFFS.




                                              7
         Professional Fees Reimbursement

In Fiscal Years 2008 and 2009, WDUQ claimed payments it received as reimbursement
for professional fees. Details follow:

Fiscal     Claimed
 Year      Amount                                    Description

 2008        $4.008   Reimbursement for Media Audit License Upgrade from Bending Oak Publishing

 2009       24,524    WHYY Invoice, Reimbursement for WDUQ’s producer/reporter’s wages, fringes,
                      & computer
 Total      $28,532

CPB Guidelines Section 2.3.1 provided that payments in exchange transactions such as
these are not eligible as NFFS. More specifically this reference establishes that for-profit
entities such as the publishing company, and WHYY, a public broadcasting entity, are
ineligible sources of payments. As a result, we determined the $28,532 paid by these two
entities is ineligible as NFFS.

         Over Claimed Institutional Support

Our review found that WDUQ over claimed institutional support of $62,186 during FYs
2008-2009. University officials indicated that the station used incorrect salary
information when calculating institutional support.

As an institutional station WDUQ is permitted to include certain revenues it receives
from its own licensee as NFFS. The allowable revenues Duquesne University can
provide include:

         • direct revenues and expenses incurred or absorbed by the
           licensee for the station; and
         • indirect administrative support.

Indirect administrative support is the portion of a licensee’s general and administrative
costs (institutional support) and facilities costs (plant operations and maintenance)
attributable to station operations. To calculate the institutional support component of its
NFFS, WDUQ used the station’s and the University’s total salaries and wages for direct
activities to determine a percentage share. WDUQ then multiplied the station’s total
salaries and wages by the percentage share to determine its amount of institutional
support. The calculations WDUQ included on its FY 2008 - 2010 AFRs are as follows:




                                               8
                     Annual Financial Report, Schedule B Information

 Description                               FY 2008         FY 2009        FY 2010

Total Station Salaries and Wages            $1,334,050      $1,917,234    $1,389,229
Total University Salaries and Wages        109,974,518     115,237,018   118,636,140
Allocation Percentage                          1.213%         1.6640%       1.1710%

Total Institutional Support                 15,378,251      20,542,123     20,770,609
Allocation Percentage                          1.213%         1.6640%        1.1710%
Institutional Support Claimed as NFFS         $186,546        $341,766      $243,224

CPB Guidelines establish that to complete the AFR correctly, the station needed to
claim total direct salaries and wages for both the station and the University exclusive of
benefits. As part of our examination of WDUQ’s AFR we attempted to verify the salary
and wages claimed in the station’s calculations of institutional support to the University’s
and the station’s audited financial statements. However, these financial statements did
not separate direct salaries and wages from benefits, but only showed a combined
amount for salaries, wages and benefits. Using supporting records we were able to
verify that the University wages claimed on the AFRs for all three fiscal years agreed
with University’s audited financial statements and were exclusive of benefits. We also
verified the station’s FYs 2010 and 2008 salaries and wages to the station’s audited
financial statements. However, our analysis showed that the 2009 wages used to
calculate the institutional support were incorrect.

Discussions with the University’s auditor and controller indicated that the station’s used
incorrect amounts for salaries and wages when calculating the institution support for FY
2008 and 2009. Subsequently, we were provided revised calculations for these two
fiscal years that decreased the FY 2009 salaries and wages and increased the FY 2008
salaries and wages. We asked the University’s auditor why we were provided
increased FY 2008 salaries and wages when the amounts shown on the original AFR
submitted to CPB agreed with the station’s audited financial statements. In response,
he indicated that the FY 2008 financial statements, prepared by the University did not
include all salaries and wages and were incorrect. To correct the errors on the 2008
and 2009 AFRs, we were provided with the revised calculations shown below:




                                             9
                                 WDUQ Revised Calculations

                                                     FY 2008        FY 2009

          Total Station Salaries and Wages            $1,619,074     $1,568,478
          Total University Salaries and Wages        109,974,518    115,244,018
          Allocation Percentage                          1.472%        1.3610%

          Total Institutional Support                 15,378,251     20,542,123

          Allocation Percentage                          1.472%        1.3610%
          Institutional Support Claimed as NFFS        $226,403        $279,580

While we were able to reconcile the auditor’s revised FY 2009 salary and wages for the
station to its audited financial statements, we were unable to verify the revised FY 2008
salaries and wages to the station’s financial statements. As a result, we accepted the
revised FY 2009 institutional support calculation and determined that for FY 2009 the
university over claimed $62,186 of institutional support.

We did not accept the FY 2008 revised calculations because we could not reconcile
them to the audited financial statements. WDUQ’s revised FY 2008 calculations would
have increased its NFFS by $22,328.

      Recommendations

1) We recommend that CPB management take the following actions to:

   a) require WDUQ to submit a revised AFR Schedule A for fiscal years 2008, 2009
   and 2010, eliminating unallowable direct revenues;

   b) require WDUQ to submit a revised AFR, Schedule B for FY 2009, eliminating
   unallowable institutional support;

   c) recover $46,219 in excess CGS payments made to WDUQ that we classified as
   funds put to better use based on the FYs 2008 and 2009 reported NFFS; and,

   d) use the revised 2010 AFR submitted by WDUQ to recalculate the 2012 CSG to
   eliminate an overpayment of approximately $1,699 in future CSG payments to the
   new licensee.

      Duquesne University Response

The University disagreed that the payments received from non-profit organization
were unallowable as NFFS because they did not meet the source requirement for
exchange transactions. The University indicated that the CPB guidance for Fiscal
Years 2008 and 2009, as provided by the CPB auditor and previously posted to

                                                10
the CPB’s ISIS system, indicates that the source of payments received in
exchange transactions “must be a state, any agency or political subdivision of a
state, or an educational institution or organization (college, university, school or
other academic institution), or a nonprofit entity.” Further, they said the non-profit
organization was a separate 501(c) (3) non-profit organization and, as such, met the
source criteria for inclusion as NFFS. The University believes that the funding
received from the non-profit organization met the source, form, purpose and
recipient criteria for inclusion as NFFS. The University recognizes that the CPB
guidance was subsequently revised to exclude exchange transactions with non-
profits in the NFFS calculation and agree with the CPB's position related to
payments received in 2010.

The University agreed that $43,977, $65,231 and $528 for FYs 2008, 2009 and 2010
respectively, were erroneously included both as underwriting and miscellaneous revenues
in the calculation of NFFS, or were otherwise unallowable as NFFS. However, of the
amounts identified as unallowable NFFS, the University provided additional underwriting
invoices to substantiate additional underwriting revenues of $36,077 and $22,965 for FYs
2008 and 2009, respectively. These revenues represented underwriting revenues earned
and recorded in June of 2008, 2009 and 2010, but were included as miscellaneous
income for those years. As these receivables were collected in subsequent years, they
said a reversing entry was recorded to the WDUQ miscellaneous income account to
eliminate any duplication of these revenues in the NFFS calculation.

The University agreed with the remaining amounts of NFFS considered unallowable in the
draft report.

      OIG Review and Comment

We do not agree that the 2008 and 2009 payments received from the non-profit
organization met the source, form, purpose, and recipient criteria for inclusion as NFFS
as the University’s response indicated. The services the University provided to the non-
profit organization were audio broadcasts of printed material to clients of the non-profit
who were sight-impaired or unable to read or hold printed materials. Client’s accessed
these services through a special FM radio receiver, the Internet, Comcast Cable
systems, or the non-profit organization’s telephone dial-in-service. CPB Guidelines
Section 2.3.1 provide that an allowable NFFS transaction can be either a contribution or
a payment provided for qualifying activities from an eligible source. Because the non-
profit’s payments were not for a public broadcasting purpose, our position concerning
this revenue remains unchanged.

We also do not agree that $36,077 and $22,965 should be included as additional
underwriting revenues in 2008 and 2009 respectively. These amounts had already
been claimed as NFFS and included in the amounts we accepted. For example, the
payments resulting from the additional 2008 invoices, totaling $36,077, were included in
the supporting documentation that the University provided us to substantiate the
underwriting amounts it claimed as 2009 NFFS revenue. Because we accepted this


                                            11
amount as FY 2009 NFFS, the $36.077 cannot be allowable as FY 2008 NFFS.
Similarly, the University claimed the $22,965 as FY 2010 NFFS revenue that we also
accepted.




                                         12
                                                                        Exhibit A

        CPB Grant Awards and Payments Made to WDUQ-FM
                    Fiscal Years 2008 – 2011


                             Award/Payment           Grant          Total
       Grant Type                Dates             Payments       Payments

FY08 CSG Unrestricted               October-07
                                    October-07          $85,571
                                      March-08           85,516    $171,033
FY08 CSG Restricted                 October-07
                                    October-07           32,995
                                      March-08           32,996      65,991
FY09 CSG Unrestricted               October-08
                                    October-08           86,281
                                      March-09           86,280     172,561
FY09 CSG Restricted                 October-08
                                    October-08           30,489
                                      March-09           30,489      60,978
FY10 CSG Unrestricted               October-09
                                    October-09           88,863
                                      March-10           88,863     177,726
FY10 CSG Restricted                 October-09
                                    October-09           31,727
                                      March-10           31,727      63,454
FY11 CSG Unrestricted             November-10
                                  November-10            99,810
                                      March-11           99,809     199,619
FY11 CSG Restricted               November-10
                                  November-10            35,434
                                      March-11           35,434      70,868
Fiscal Stabilization                January-10
                                    January-10           22,076       22,076
Total Grant Payments**                                            $1,004,306

 **FY 2008 - FY2011 CSGs total $982,230 ($1,004,306 - $22,076).




                                      13
                                                                                Exhibit B

                     Summary of Non-Federal Financial Support
                                WDUQ-FM Radio


           AFR Schedule                 FY 2008      FY 2009      FY 2010        Total

Direct Revenue (Schedule A)             $2,718,031   $2,854,263   $2,588,912   $8,161,206
Indirect Administrative Support
     (Schedule B)                         239,870      404,094      305,862     949,826

In-Kind Contributions (Schedules C&D)
   a. Services and Other Assets
       (Schedule C)                        45,457       48,694       49,962     144,113
   b. Property and equipment
       (Schedule D)                              0           0            0        0

             TOTAL NFFS                 $3,003,358   $3,307,051   $2,944,736   $9,255,145




                                            14
                                                                                       Exhibit C

                    WDUQ-FM FYs 2008-2010 Annual Financial Reports

Line              Schedule A, Source of Income:            FY 2008        FY 2009      FY 2010
1      Amounts provided directly by federal government        $3,500        $3,500       $3,100
1.D       National Endowment for the Arts and Humanities       3,500         3,500        2,500
1.F       Other Federal Funds                                                               600
2      Amounts provided by Public Broadcasting Entities      893,892       416,394      434,387
2.A       CPB-Unrestricted Portion of Radio CSG              171,037       172,562      178,208
2.C       CPB-Restricted Portion of Radio CSG                 65,987        60,977       62,972
2.G       NPR                                                   8,983       10,249         6,772
2.H       Public Broadcasting Stations--all payments         647,885       172,606      164,359
3      Local Boards and Departments of Education                2,125                       930
4      State Boards and Departments of Education                     0      11,805               0
5      State Colleges and Universities                        13,296        16,268       31,910
6      Other State-Supported Colleges and Universities        17,432
7      Private Colleges and Universities                     339,726       552,287      272,956
8      Foundations and Nonprofit Associations                586,600       416,925      384,807
8.a       Amount Received as Underwriting                    305,225       189,129      221,606
9      Business and Industry                                 290,362       242,356      291,270
9.a       Amount Received as Underwriting                    264,532       227,641      280,854
10     Memberships and Subscriptions (net of write-offs)    1,318,935     1,491,995    1,571,849
15.A   Passive Income - Interest and Dividends                 2,685         2,888        1,922
16     Gains and Losses on Investments                               0     (13,351)        8,633
16.B      Realized gains/losses on other than endowments             0      (6,903)        (731)
16.C      Realized gains/losses on trusts and annuities              0      (6,448)       9,364
19     Gifts and Bequests from Major Individual Donors       146,870       119,739      150,368
21     Total Revenue                                       $3,615,423    $3,260,806   $3,035,032


        Adjustments to Revenue
22     Federal Revenue from Line 1                             3,500         3,500        3,100
23     Public broadcasting revenue                           893,892       416,394      434,387
26     Other Automatic Subtractions from Total Revenue               0     (13,351)       8,633
26.D     Realized gains/losses on Investments                        0      (6,903)        (731)
26.E     Unrealized investment gains and losses                      0      (6,448)       9,364
27     Total Direct Nonfederal Financial Support           $2,718,031    $2,854,263   $2,588,912




                                                    15
                                                                           Exhibit C (continued)

                 WDUQ-FM FYs 2008-2010 Annual Financial Reports

Line   Schedule B Worksheet                                 FY 2008       FY 2009       FY 2010
1a.    Total Station Operating Expenses                     $3,912,244    $3,686,070    $3,364,973
1b.2   Depreciation                                            76,446        82,165        67,825
1b.4   In-kind Contributions                                  $45,457        48,694        49,962
1b.5   Indirect Administrative Support                        239,870       404,096       305,862
1b.8   Total Deductions                                       361,773       534,955       423,649
1c     Station Net Direct Expenses                           3,550,471     3,151,115     2,941,324
2b     Salaries and Wages Method                             1,334,050     1,917,234     1,389,229
2b.2   Licensee Salaries and Wages                         109,974,518   115,237,018   118,636,140
2b.3   Percentage of Allocation                             1.213054%    1.663731%         1.171%
2c.2   Costs per licensee financial statements              35,604,230    37,758,130    38,703,331
2c.3   LESS: Costs Not Benefiting Public Station            20,225,979    17,216,007    17,932,722
2c.4   Costs Benefiting Station Operations                  15,378,251    20,542,123    20,770,609
2c.5   Percentage of Allocation                             1.213054%    1.663731%         1.171%
2c.6   Institutional Costs Benefiting Station Operations      186,546       341,766       243,224
3a     Net Square Footage Occupied by Station                  11,276        11,276        11,276
3b     Licensee's Net Assignable Square Footage              3,519,431     3,519,431     3,516,342
3c     Percentage of Allocation                             0.320393%     0.320393%    0.320674%
3d.2   Costs per licensee financial statements              28,628,649    33,650,206    32,096,262
3d.3   LESS: Costs Not Benefiting Public Station            11,985,310    14,196,050    12,562,512
3d.4   Costs Benefiting Station Operations                  16,643,339    19,454,156    19,533,750
3d.5   Percentage of Allocation                             0.320393%    0.320393%     0.320674%
3d.6   Total Physical Plant Support Benefiting Station         53,324        62,329        62,639
4      Total Cost Benefiting Station Operations              $239,870      $404,094      $305,862


       Schedule B
1      Total Support Activity Benefiting Station              239,870       404,094       305,862
5      Total Indirect Administrative Support                 $239,870      $404,094      $305,862


       Schedule C
2B     Annual Rental Value of Tower Facilities                 45,457        48,694        49,962
4      Total In-Kind Contributions                            $45,457       $48,694       $49,962




                                                     16
                                                                         Exhibit C (continued)

                 WDUQ-FM FYs 2008-2010 Annual Financial Reports

Line   Schedule E, Expenses:                              FY 2008       FY 2009      FY 2010
1      Programming and Production                         $2,315,556   $1,992,807   $1,657,016
2      Broadcasting and Engineering                         323,129      315,184      390,350
3      Program Information and Promotion                    158,300      174,365      230,708
       Support Services
4      Management and General                               337,172      367,120      329,189
5      Fund raising and Membership Development              527,089      564,677      446,285
6      Underwriting and Grant Solicitation                  251,001      271,917      311,425
10     Total Expenses and Investments in Capital Assets   $3,912,244   $3,686,070   $3,364,973
11     Total Expenses (Direct only)                        3,626,917    3,233,280    3,009,148
12     Total Expenses (Indirect and in-kind)               $285,327     $452,790     $355,825




                                                   17
                                                                                 Exhibit D

                           SCOPE AND METHODOLOGY
We performed this audit as a compliance attestation examination under Government
Auditing Standards (GAS) to determine whether WDUQ reported NFFS in accordance with
CPB’s Guidelines; complied with Certification of Eligibility requirements; and, spent grant
funds in accordance with grant terms. Our scope did not include testing for compliance with
Communications Act requirements for open meetings, open financial records, EEO, and
donor list requirements. We performed our audit field work during the period December
2011 and January 2012.

The scope of the audit included tests of the AFRs, Schedules A, B, and C, and the data
reported on them for the fiscal years ended June 30, 2008, 2009, and 2010. For these
years we tested the allowability of the $9.3 million of NFFS claimed on WDUQ’s AFRs by
performing financial reconciliations and comparisons to underlying accounting records and
the audited financial statements to verify transactions recorded in the general ledger and
reported on the AFRs. We evaluated compliance with CPB Guidelines, in part, by reviewing
documentation of cash receipts, donations, underwriting contract agreements, and
reviewing the fair value reported for in-kind contributions. We tested $1.5 million of the $3
million of NFFS claimed for FY 2008, over $1.7 million of the $3.3 million claimed for FY
2009, and $1.2 million of the $2.9 million claimed for FY 2010. We concentrated our
judgmental testing on the larger revenue amounts selected from the higher risk revenue
categories. Our review did not evaluate NFFS revenues claimed by WDUQ on the 2011
AFR it submitted to CPB on December 5, 2011, at the conclusion of our on-site fieldwork

We reviewed allowability of expenditures totaling $422,580 for the $982,230 WDUQ
received for the FYs 2008-2011 CSGs shown in Exhibit A to determine compliance with
grant agreement terms. We also reviewed the Fiscal Stabilization grant expenditures to
determine whether these expenditures were expended in accordance with grant terms.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by WDUQ’s independent public accountant (IPA), we met with representatives of
the firm that conducted WDUQ’s financial statement audit and attestation work on WDUQ’s
AFRs. We reviewed their tests of internal controls and their fraud risk assessment analysis.
For the attestation review, we also reviewed their test work on the accuracy of WDUQ’s
AFRs.

We gained an understanding of WDUQ’s internal controls over the preparation of the AFRs
and cash receipts as part of our overall risk assessment. We used this understanding to
plan our audit work and select those areas that posed the greatest risk to the accurate
reporting of NFFS.




                                             18
